No. 19-551

 

IN THE

Supreme Court of the Anited States

RONALD CALZONE,
Petitioner,

Vv.

ERIC T. OLSON,
Respondent.

CERTIFICATE OF SERVICE

I hereby certify that I am a member of the Bar of this Court and that
forty true and correct copies of the Brief in Opposition to the petition for writ
of certiorari in this case were sent by Federal Express, pursuant to Rules 29.2
and 29.5(b) this 18th day of December, 2019, to:

Scott S. Harris, Clerk

Supreme Court of the United States
1 First Street, N.E.

Washington, D.C. 20543

Further, I hereby certify that three true and correct copies of the foregoing
documents in this case were sent by Federal Express, pursuant to Rule 29.5(b),
this 18th day of December, 2019, to:

David E. Roland
Freedom Center of Missouri
P.O. Box 693
Mexico, Missouri 65265
Respectfully submitted,
oF ae

  

 

 

aan S
ee TA AO =
December 18, 2019 Peter T. Reed Cc.

DEPUTY SOLICITOR GENERAL
STATE OF MISSOURI

 
